Supreme Court Litigation Clinic
Crown Quadrangle
559 Nathan Abbott Way
Stanford, CA 94305-8610
Tel 650 724.1900
Fax 650 723.4426
sup.ct.clinic@law.stanford.edu

November 19, 2019
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Michigan v. Beck, No. 19-564
Dear Mr. Harris,
I am co-counsel for respondent in this case. I am writing to request a 30day extension of time in which to file the brief in opposition. The brief is
currently due on November 29, 2019; granting this request would make the brief
due December 30, 2019. This request is necessary because of the heavy press of
other business in the Stanford Supreme Court Litigation Clinic and to allow new
counsel to get fully up to speed on the case.
Thank you very much for your time and assistance in this matter.
Very truly yours,

Jeffrey L. Fisher

Counsel for Respondent
cc:

All Counsel

Community Law ♣ Criminal Defense ♣ Environmental Law ♣ Immigrants' Rights
International Human Rights and Conflict Resolution ♣ Juelsgaard Intellectual Property and Innovation
Organizations and Transactions ♣ Religious Liberty ♣ Supreme Court Litigation ♣ Youth and Education Law Project

